<html>
<title> - PROTECTING AMERICA'S YOUTH: AN UPDATE FROM THE NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                 PROTECTING AMERICA'S YOUTH: AN UPDATE
                  FROM THE NATIONAL CENTER FOR MISSING
                         AND EXPLOITED CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON HEALTH,
                    EMPLOYMENT, LABOR, AND PENSIONS

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 15, 2014

                               __________

                           Serial No. 113-62

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                                ___________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
88-650 PDF                    WASHINGTON : 2016                        
________________________________________________________________________________________             
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0661766946657375726e636a762865696b28">[email&#160;protected]</a>  
             
                
                
                
                
                
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Ruben Hinojosa, Texas
Tom Price, Georgia                   Carolyn McCarthy, New York
Kenny Marchant, Texas                John F. Tierney, Massachusetts
Duncan Hunter, California            Rush Holt, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Tim Walberg, Michigan                Timothy H. Bishop, New York
Matt Salmon, Arizona                 David Loebsack, Iowa
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Scott DesJarlais, Tennessee          Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Trey Gowdy, South Carolina             Northern Mariana Islands
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Mike Kelly, Pennsylvania             Mark Pocan, Wisconsin
Susan W. Brooks, Indiana             Mark Takano, California
Richard Hudson, North Carolina
Luke Messer, Indiana
Bradley Byrne, Alabama

                    Juliane Sullivan, Staff Director
                 Megan O'Reilly Minority Staff Director
                                
                                ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                David Loebsack, Iowa,
Thomas E. Petri, Wisconsin             Ranking Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Carolyn McCarthy, New York
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Susan W. Brooks, Indiana             Marcia L. Fudge, Ohio
Bradley Byrne, Alabama               Jared Polis, Colorado
                                     Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 15, 2014....................................     1

Statement of Members:
    Loebsack, Hon. Dave, a Representative in Congress from the 
      State of Iowa..............................................     4
        Prepared statement of....................................     5
    Rokita, Hon. Todd, Chairman, Subcommittee On Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Ryan, John, D., Dr., President and CEO, National Center for 
      Missing and Exploited Children, Alexandria, VA.............     7
        Prepared statement of....................................     9

Additional Submissions:
    Questions submitted for the record by:
        Loebsack, Hon. David, a Representative in Congress from 
          the State of Iowa......................................    35
        Walberg, Hon. Tim, a Representative in Congress from the 
          State of Michigan......................................    36
    Mr. Ryan's response to questions submitted for the record        38

 
                 PROTECTING AMERICA'S YOUTH: AN UPDATE
                  FROM THE NATIONAL CENTER FOR MISSING
                         AND EXPLOITED CHILDREN

                              ----------                              


                         Tuesday, July 15, 2014

                       House of Representatives,

                    Subcommittee on Early Childhood,

                  Elementary, and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Kline, Petri, Foxx, Roe, 
Thompson, Brooks, Loebsack, McCarthy, Fudge, and Polis.
    Also present: Representatives Walberg and Guthrie.
    Staff Present: Janelle Belland, Coalitions and Members 
Services Coordinator; Kathlyn Ehl, Legislative Assistant; 
Lindsay Fryer, Professional Staff Member; Amy Raaf Jones, 
Director of Education and Human Resources Policy; Cristin Datch 
Kumar, Professional Staff Member; Nancy Lock, Chief Clerk; 
Daniel Murner, Deputy Press Secretary; Brian Newell, 
Communications Director; Krisann Pearce, General Counsel; 
Lauren Reddington, Deputy Press Secretary; Mandy Schaumburg, 
Education Deputy Director and Senior Counsel; Alissa 
Strawcutter, Deputy Clerk; Tylease Alli, Minority Clerk/Intern 
and Fellow Coordinator; Jamie Fasteau, Minority Director of 
Education Policy; Scott Groginsky, Minority Senior Education 
Policy Advisor; Eunice Ikene, Minority Labor Policy Associate; 
Brian Kennedy, Minority General Counsel; and Brian Levin, 
Minority Press Secretary.
    Chairman Rokita. A quorum being present, the Subcommittee 
on Early Childhood, Elementary and Secondary Education will 
come to order.
    Good morning, everyone. We are pleased to hear today from 
Mr. John Ryan, the president and chief executive officer of the 
National Center for Missing and Exploited Children, or NCMEC, 
correct? Mr. Ryan will give us an update on NCMEC's important 
work and how a number of legislative changes enacted last year 
are enhancing the efforts of this vital organization.
    At a ceremony opening the National Center for Missing and 
Exploited Children, President Ronald Reagan said quote, ``All 
Americans, and especially our youth, should have the right and 
the opportunity to walk our streets, to play, and to grow, and 
to live their lives without being at risk,'' unquote. Spoken 30 
years ago, President Reagan's words are just as true now as 
they were back then.
    And if we are truly fighting for all people so that they 
can build better lives for themselves and their families, one 
of the key things we must be doing, is everything we can to 
enhance the safety of their children.
    No child should be afraid to walk home from school, hang 
out with friends at the mall, or surf the Internet. Yet, sadly, 
we know that is just not the case. Too often a predator is 
lurking in the shadows ready to do harm.
    Each year, thousands of children go missing or fall victim 
to sexual exploitation and other heinous crimes. As the father 
of two young boys, I cannot fathom the pain and suffering these 
families are forced to bear. No one can, but we can do 
something about it.
    For 30 years, a national public-private partnership has 
worked to protect children and safely return victims to their 
families. NCMEC is at the center of this vital effort. The 
organization provides services, resources, and other assistance 
to victims of abduction and sexual exploitation, as well as 
their families and those who serve them. The center's 24-hour 
CyberTipline has provided law enforcement with more than 2.3 
million leads of suspected child sexual exploitation. On its 
own, this would constitute a stellar record, but the tip line 
is only one part of a larger effort. The center also manages a 
national database on missing children, organizes case 
management teams to serve as a single point of contact for 
families, and offers training and technical assistance to law 
enforcement and professionals working in health care and the 
juvenile justice system. These are just a few of the services 
and support provided each and every day. The only way to 
describe the work of NCMEC's staff is heroic. They are making a 
difference in the lives of countless children and families. In 
fact, just this year, I read that in partnership with the FBI 
and the Department of Justice, NCMEC participated in Operation 
Cross Country VIII. This week-long national campaign led to the 
arrest of 281 child traffickers and the rescue of 168 children, 
besting its work from the prior year.
    However, we all know that despite these achievements, more 
work needs to be done. To help support that effort, last year 
Congress passed the E. Clay Shaw, Jr. Missing Children's 
Assistance Reauthorization Act. This legislation extended our 
partnership with NCMEC while providing additional 
accountability and oversight protections. The law also includes 
reforms to encourage greater coordination between law 
enforcement, States, and schools. As one of many partners, 
Congress cannot stop there. There is more that can and should 
be done on behalf of these vulnerable youth. And toward that 
end, a number of important legislative proposals were 
introduced that will help strengthen our commitment to the 
youth who are victims of sex trafficking. While no legislation 
can provide a perfect solution, the bills put forward last week 
will move our country in the right direction. Protecting 
children has been and must remain a national priority.
    Mr. Ryan, I would like to thank you and your staff for 
the--for yours and their hard work and dedication. As a 
committee, Congress, and Nation, let's continue working 
together so we can, as President Reagan said, turn the tide on 
these hateful crimes.
    And with that, I will now recognize the senior Democratic 
member of the subcommittee, Congressman David Loebsack, for his 
opening remarks.
    Congressman.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning. We are pleased to hear today from Mr. John Ryan, the 
president and chief executive officer of the National Center for 
Missing and Exploited Children or NCMEC. Mr. Ryan will give us an 
update on NCMEC's important work and how a number of legislative 
changes enacted last year are enhancing the efforts of this 
organization.
    At a ceremony opening the National Center for Missing and Exploited 
Children, President Ronald Reagan said, ``All Americans, and especially 
our youth, should have the right and the opportunity to walk our 
streets, to play and to grow and to live their lives without being at 
risk.'' Spoken 30 years ago, President Reagan's words are just as true 
now as they were back then.
    If we are truly fighting for all people, so that they can build 
better lives for themselves and their families, one of the key things 
we must help them with is the safety of their children.
    No child should be afraid to walk home from school, hang out with 
friends at the mall, or surf the Internet. Yet sadly we know that's 
just not the case. Too often a predator is lurking in the shadows, 
ready to do harm. Each year thousands of children go missing or fall 
victim to sexual exploitation and other heinous crimes. As the father 
of two young boys, I cannot fathom the pain and suffering these 
families are forced to bear. No one can, but we can do something about 
it.
    For 30 years a national public-private partnership has worked to 
protect children and safely return victims to their families. NCMEC is 
at this center of this vital effort. The organization provides 
services, resources, and other assistance to victims of abduction and 
sexual exploitation, as well as their families and those who serve 
them.
    The center's 24-hour Cyber Tipline has provided law enforcement 
with more than 2.3 million leads of suspected child sexual 
exploitation. On its own this would constitute a stellar record, but 
the tip line is only one part of a larger effort. The center also 
manages a national database on missing children, organizes case 
management teams to serve as a single point of contact for families, 
and offers training and technical assistance to law enforcement and 
professionals working in health care and the juvenile justice system.
    These are just a few of the services and support provided each and 
every day. The only way to describe the work of NCMEC's staff is 
heroic; they are making a difference in the lives of countless children 
and families. In fact, just this year, in partnership with the FBI and 
Department of Justice, NCMEC participated in Operation Cross Country 
VIII. This week-long national campaign led to the arrest of 281 child 
traffickers and the rescue of 168 children - besting its work from the 
prior year.
    However, we all know that despite these achievements, more work 
needs to be done. To help support that effort, last year Congress 
passed the E. Clay Shaw, Jr. Missing Children's Assistance 
Reauthorization Act. Enacted with overwhelming bipartisan support, the 
legislation extended our partnership with NCMEC while providing 
additional accountability and oversight protections. The law also 
includes reforms to encourage greater coordination between law 
enforcement, states, and schools.
    As one of many partners, Congress cannot stop there. There is more 
that can and should be done on behalf of these vulnerable youth. Toward 
that end, a number of important legislative proposals were introduced 
that will help strengthen our commitment to youth who are victims of 
sex trafficking. While no legislation can provide a perfect solution, 
the bills put forward last week will move our country in the right 
direction.
    Protecting children has been and must remain a national priority. 
Mr. Ryan, I would like to thank you and your staff for their hard work 
and dedication. As a committee, Congress, and nation, let's continue 
working together so we can, as President Reagan said, ``turn the tide 
on these hateful crimes.''
    With that, I will now recognize the senior Democrat of the 
subcommittee, Congressman David Loebsack, for his opening remarks.
                                 ______
                                 
    Mr. Loebsack. I thank the chair for convening today's 
important oversight hearing.
    And I thank you, Mr. Ryan, for joining us today to provide 
an update on the activities National Center for Missing and 
Exploited Children, NCMEC. As a father and grandfather, I, too, 
can only imagine the terror experienced by the parents of a 
missing child. The parents in the midst of this trauma need the 
full support of law enforcement, of schools, and other programs 
designed to locate and recover missing or exploited children. 
And of course, this is where the National Center for Missing 
and Exploited Children comes in.
    Since its creation in 1984, through the Missing Children's 
Assistance Act, this private, nonprofit organization has 
provided assistance, outreach, and support to missing and 
exploited children and their families. NCMEC is tasked with 
coordinating Federal efforts to locate, recover, or reunite 
missing children with families as well as efforts to reduce and 
end child sexual exploitation and trafficking.
    Founded in response to several high-profile child 
abductions, the center works with law enforcement to rapidly 
respond to the approximately 10,000 to 13,000 missing children 
reports they receive each year. NCMEC is also a partner in the 
AMBER Alert program, the Nation's child abduction alert system, 
named for Amber Hagerman, a 9-year old abducted and murdered in 
Arlington, Texas, in 1996. The alerts are distributed widely 
via radio, television, email, text message and highway traffic 
signs. As of this May, 692 children have been successfully 
recovered as a result of AMBER Alerts. Just last week, three 
missing girls in Iowa were recovered thanks to a swiftly 
dispatched AMBER Alert.
    Further, NCMEC offers training and technical assistance to 
law enforcement in identifying sex offenders, provides guidance 
and information to community partners on how to effectively 
locate and identify missing children and operates a tip line 
for reporting missing children.
    In recent years, the center has seen its workload relating 
to cases of sexual exploitation of children increase 
dramatically, unfortunately. In fact, the number of complaints 
of child sex trafficking increased 1,000 percent from 2004 to 
2008. Additionally, the Internet has increased the risk of 
youth exploitation and Internet crimes against children, and 
child pornography cases continue to rise.
    Last September, Congress reauthorized the Missing 
Children's Assistance Act and updated the role of the National 
Center for Missing and Exploited Children to reflect this 
evolving landscape. One of the most important provisions of 
this reauthorization was the addition of a requirement that 
NCMEC coordinate with the Interagency Council on Homelessness 
in order to address the high number of homeless youth who were 
victims of sex trafficking.
    Runaway and homeless youth are particularly vulnerability 
to sexual exploitation and trafficking. Last year, one in seven 
endangered runaways reported to NCMEC were likely sex 
trafficking victims. Many of these youth were in the care of 
social services or foster care when they ran away and may have 
experienced sexual abuse before they left their homes. These 
children are at an increased risk of falling victim to sexual 
exploitation or engaged in what is called survival sex in 
exchange for food, shelter, or money. I am here to get an 
update on how NCMEC is coordinating with services for homeless 
and runaway youth to prevent children from ending up in his 
devastating circumstances. I also recognize there is still more 
we must do to prevent children from becoming victims in the 
first place.
    Despite the best effort of NCMEC, more than 10,000 kids 
still go missing each year, and scores of children are forced 
into sexual exploitation and trafficking.
    I look forward to hearing from you, Mr. Ryan, on what 
Federal supports do you believe needs to be to change this.
    It is also important to note that the Runaway and Homeless 
Youth Act is up for reauthorization this year, but at this 
point, there has been no movement on this committee to carry 
out that reauthorization. This law complements The Missing 
Children's Assistance by providing targeted assistance to 
homeless youth through initiatives like the Basic Center 
Program, which provides youth with emergency shelter, food, 
clothing, and medical care. By reducing the number of runaways 
and homeless kids on the streets with nowhere to go, we can 
lower the risk of exploited children. As we move forward, it is 
critical that we provide NCMEC with all of the resources it 
needs to carry out its mission, including adequate funding.
    Thank you again, Mr. Chair, for convening this hearing. As 
we can see, we have a lot of challenges ahead of us, and I look 
forward to hearing from you, Mr. Ryan, about how we can address 
those challenges. Thank you.
    Chairman Rokita. And I thank the gentleman.
    [The statement of Mr. Loebsack follows:]

Prepared Statement of Hon. Dave Loebsack, Subcommittee Early Childhood, 
                   Elementary and Secondary Education

    I thank the Chair for convening today's important oversight 
hearing, and thank Mr. Ryan for joining us today to provide an update 
on the activities of the National Center for Missing and Exploited 
Children.
    As a father and a grandfather, I cannot fathom the terror 
experienced by the parents of a missing child.
    Parents in the midst of this trauma need the full support of law 
enforcement, schools, and other programs designed to locate and recover 
missing or exploited children.
    That is where the National Center for Missing and Exploited 
Children comes in.
    Since its creation in 1984 through the Missing Children's 
Assistance Act, this private, non-profit organization has provided 
assistance, outreach and support to missing and exploited children and 
their families.
    NCMEC is tasked with coordinating federal efforts to locate, 
recover or reunite missing children with families, as well as efforts 
to reduce and end child sexual exploitation and trafficking.
    Founded in response to several high profile child abductions, the 
Center works directly with law enforcement to rapidly respond to the 
approximately ten to thirteen thousand missing children reports they 
receive each year.
    NCMEC is also a partner in the Amber Alert program, the nation's 
child abduction alert system. Named for Amber Hagerman, a 9-year old 
abducted and murdered in Arlington, Texas in 1996, the alerts are 
distributed widely via radio, television, e-mail, text message and 
highway traffic signs.
    As of this May, 692 children have been successfully recovered as a 
result of Amber Alerts.
    Just last week, three missing girls in Iowa were recovered thanks 
to a swiftly dispatched Amber Alert.
    Further, NCMEC offers training and technical assistance to law 
enforcement in identifying sex offenders, provides guidance and 
information to community partners on how to effectively locate and 
identify missing children, and operates a tip line for reporting 
missing children.
    In recent years, the Center has seen its workload relating to cases 
of sexual exploitation of children increase dramatically. In fact, the 
number of complaints of child sex trafficking increased 1000 percent 
from 2004 to 2008.
    Additionally, the Internet has increased the risk of youth 
exploitation and Internet crimes against children and child pornography 
cases continue to rise.
    Last September, Congress reauthorized the Missing Children's 
Assistance Act and updated the role of the National Center for Missing 
and Exploited Children to reflect this evolving landscape.
    One of the most important provisions of this reauthorization was 
the addition of a requirement that NCMEC coordinate with the 
Interagency Council on Homelessness in order to address the high number 
of homeless youth who are victims of sex trafficking.
    Runaway and homeless youth are particularly vulnerable to sexual 
exploitation and trafficking. Last year, one in seven endangered 
runaways reported to NCMEC were likely sex trafficking victims.
    Many of these youth were in the care of social services or foster 
care when they ran and may have experienced sexual abuse before they 
left their homes.
    These children are at an increased risk of falling victim to sexual 
exploitation or engage in ``survival sex'' in exchange for food, 
shelter or money.
    I'm eager to get an update on how NCMEC is coordinating with 
services for homeless and runaway youth to prevent children from ending 
up in these devastating circumstances.
    I also recognize that there is still more we must do to prevent 
children from becoming victims.
    Despite the best effort of NCMEC, more than 10,000 kids sill go 
missing each year and scores of children are forced into sexual 
exploitation and trafficking.
    I look forward to hearing from Mr. Ryan on what federal supports he 
needs to change this.
    It is also important to note that the Runaway and Homeless Youth 
Act is up for reauthorization this year, but at this point there has 
been no movement in this committee to do so.
    This law complements the Missing Children's Assistance by providing 
targeted assistance to homeless youth through initiatives like the 
Basic Center Program, which provides youth with emergency shelter, 
food, clothing, and medical care.
    By reducing the number of runaway and homeless kids in the streets 
with nowhere to go, we can lower the risk of exploited children.
    As we move forward, it is critical that we provide the National 
Center for Missed and Exploited Children with all of the resources it 
needs to carry out its mission, including adequate funding.
    I look forward to hearing from you, Mr. Ryan.
                                 ______
                                 
    Chairman Rokita. Pursuant to Committee Rule 7(c), all 
members will be permitted to submit written statements to be 
included in the permanent hearing record.
    And without objection, the hearing record will remain open 
for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
official hearing record.
    It is now my pleasure to introduce our distinguished 
witness. Mr. John Ryan is the president and chief executive 
officer of the National Center for Missing and Exploited 
Children here in Washington, D.C. He has served in that 
position since December of 2013.
    Mr. Ryan, before I recognize you to provide your testimony, 
let me briefly explain the lighting system. You will have 5 
minutes to summarize your written testimony. Of course, when 
you begin, the light will be green. When there is 1 minute 
left, it will be yellow. And then please make sure you are 
finished up by the red light. And that is more of a reminder 
for us up here sometimes than it is for you.
    But after you are done, I will recognize members, who will 
each have 5 minutes to ask their questions, and out of 
deference to my colleagues, I am going to offer to take my 
questioning last so we can get theirs in first and accommodate 
their schedules.
    So, with that, you are recognized for 5 minutes.

 STATEMENT OF JOHN D. RYAN, PRESIDENT AND CEO, NATIONAL CENTER 
     FOR MISSING & EXPLOITED CHILDREN, ALEXANDRIA, VIRGINIA

    Mr. Ryan. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee.
    I welcome this opportunity to appear before you today to 
discuss the National Center for Missing and Exploited Children 
and how our role is continually expanding to respond to 
evolving threats against our Nation's children. As you know, 
the National Center is a private, nonprofit organization 
designated by Congress to work in partnership with the Justice 
Department and funded by both the public and private sectors. 
The National Center is a unique public-private partnership 
working with government agencies, military branches, private 
industry, other nonprofits and public communities to build a 
coordinated national response to the problem of missing and 
sexually exploited children.
    In April of this year, we commemorated 30 years of 
operation, during which our national hotline has handled more 
than 4 million calls. We have distributed literally billions of 
missing child posters, assisted law enforcement in the recovery 
of more than 160,000 missing children, coordinated the 
secondary distribution of AMBER Alerts, leading to the recovery 
of 695 abducted children and provided emotional support to 
affected families.
    We have trained more than 300,000 law enforcement, criminal 
justice, military prosecutors, and healthcare professionals; 
processed more than 2.6 million CyberTipline reports of 
suspected child sexual exploitation; and reviewed more than 115 
million images and videos of apparent child pornography to 
assist law enforcement in identifying these victimized 
children. To date, nearly 6,000 children have been identified 
through clues gleaned from these images.
    The National Center has done a lot to make our children 
safer, but this organization is needed more now than ever. The 
world is a different place than it was 30 years ago. The 
Internet has transformed life in many positive ways, but it has 
also fostered an explosion of child pornography, literally 
images of violent sexual assaults against children, that are 
traded amongst offenders from all walks of life. The Internet 
has inspired new crimes, with names like online enticement and 
sextortion, and has become a thriving marketplace for selling 
children for sex.
    Many children today have cell phones which function the 
same as computers. This is why it is vital that we work even 
more closely with our Nation's schools to help educate them 
about the dangers on the Internet and the real world. As part 
of our recent reauthorization, you gave us the authority to 
provide more resources to State and local educational agencies. 
We have started to use this new authority to expand our 
programs to protect more children. Among our expanded 
initiatives with schools are new prevention curriculums, such 
as our KidSmartz prevention curriculum, which includes lessons 
plans and teaching tools set to launch this summer in time for 
the new school year. We have also been working to develop more 
age-specific, grade-level appropriate online curriculum and 
related educational resources for teachers to download from our 
Web site to use directly in their classrooms.
    When I became president of NCMEC 2 years ago, I was 
appalled at the number of children being openly sold for sex on 
Web sites like Backpage. Technology has changed the playing 
field. A customer can shop online from the privacy of a home or 
hotel room and a child will be delivered to their door.
    As part of our work to combat child sex trafficking, we 
assist the FBI with Operation Cross Country as has been 
mentioned. That was headquartered at our center and it led to 
the recovery of 168 children over a 3-day period and the arrest 
of 281 pimps and predators. One example was a 16-year old who 
reported to her mother that she ran away from a group home 
because she was being recruited by gangs. The mother took the 
initiative, looked up the Backpage, saw the phone number 
advertised, called the National Center. We were able to track 
that phone number to three States in the span of less than 3 
days. We passed that on to law enforcement. That girl was 
recovered during Operation Cross Country.
    With respect to those children missing from foster care, 
there are current laws before Congress now that we urge 
Congress to pass. Right now, only two States have laws 
mandating the reporting of children missing from foster care. 
As has been pointed out, one in seven missing children are also 
being sexually exploited; 67 percent of those are coming from 
foster care children. No one is looking for these children. 
They cannot be found until they are looked for.
    So I want to first thank this committee for focusing your 
efforts and giving us the ability to work more closely with 
schools, with teachers, with communities, especially those 
children with special needs.
    One in 68, according to the CDC, suffer from autism. These 
children are wandering more than 50 percent of the time. 
Wandering is not the right term. They are bolting, and where 
are they bolting to, unsafe environments, such as bodies of 
waters. Forty-five children with autism have drowned in the 
last 2 years. We set up new protocols for first responders 
because the behavioral characteristics are quite different for 
these children. Parents need to be educated. First responders 
need to be educated, and we believe schools will play an 
important role in the prevention and awareness of this new 
phenomenon. It has reached epidemic proportions.
    So, with that, Chairman, I devoted more time for Q and A 
because I think that is more important to focus on what is 
happening now, and how we think we can partner further with 
this committee. I want to thank you, though, for the 
reauthorization and the ability to meet these emerging 
challenges.
    [The statement of Mr. Ryan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. And I thank Mr. Ryan. As I said earlier, I 
am going to defer my questions to the end and the chairman of 
the full committee is now recognized for 5 minutes, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And thank you, Mr. Ryan, for being here. It was a pleasure 
to meet you and work with you when we were doing 
reauthorization. And as you know, I think that the center just 
does amazing, and almost unimaginable, unimaginably difficult 
and challenging work, so we thank you for that.
    I am looking at a couple of things here. I have got a--I 
think probably provided by your office, a nice little chart 
talking about the National Center's statistics for Minnesota. 
And looking at the statistics since 1990, in Minnesota alone, 
NCMEC worked on 1,699 endangered runaways, 373 family 
abductions, 67 lost, injured, or otherwise missing, and so 
forth. That is one State and not that big a State where you are 
working all the time and doing, as I have said, unimaginably 
challenging and difficult work.
    Speaking of Minnesota, in Minneapolis, we have a little 
company there called Lifetouch. It is a school portrait 
company, and you have arranged to work with them to help law 
enforcement and the media. How did that come about, and how 
does that work?
    Mr. Ryan. Lifetouch actually approached us back in 2004. As 
you say, they are based in Minnesota. They are the largest 
national school photographers, and they are now global, as they 
grow. They stepped up on a voluntary basis, offered to take 
free photographs for families of their children that families 
could use and, with the assistance of Lifetouch, form a what 
they call a SmileSafe ID card, which the families can hold and 
has all of the relevant information, plus a photograph of their 
child.
    In addition, Lifetouch with the parents' permission 
digitizes that photo and information, so when law enforcement 
is called upon to find a missing child, and we get that notice, 
the first thing we do to see if we have that photo and 
information on file. Invariably, we do now, because of 
Lifetouch. With this program, we found missing children in over 
20 States because their child's photo was in Lifetouch's 
digitized inventory.
    Mr. Kline. Thank you. Again, another example of great 
innovation and progress. You are one of those agencies where 
everybody is busy all the time, coming up with new ideas and 
new approaches, because you are on a mission. And it is 
reassuring to know that you are there and that you have the 
relationships that you have with law enforcement.
    You mentioned autism, and the increasing numbers of 
children with autism, and the things that you are doing. Can 
you expand a little bit, sort of my remaining time here, and 
tell me how this is different and how you developed 
partnerships to make this work? It has got to be fairly 
challenging.
    Mr. Ryan. It is, Congressman. We learned from the first-
responder community that the characteristics of a typical 
search for a missing child weren't applying in certain cases. 
And the common denominator they found was these children 
suffered from one of the syndromes of autism. These children 
are attracted to high-risk environments. When we use the term 
``wander,'' that comes from the discussion dealing with the 
elderly, when they go off and you know, and typically, it is a 
benign situation. But with these children, they are literally 
bolting, in the blink of an eye, and they are attracted to 
bodies of water, to high-density traffic areas. And within 
seconds, they can be thrust into these environments, despite 
the best care of parents, despite the best response of the 
first-responder community. So we have learned that it is 
critical to educate the parents in terms of what measures they 
could take to safeguard this child, both within their home and 
within the schools, because these children are bolting from 
schools.
    We saw that in New York City. Avonte Oquendo, last year, 
literally bolted from the classroom and later turned out went 
right in the East River. And what is the lesson learned there? 
Schools need to know what measures they can take to prevent a 
child like that from having open access and egress from that 
school. Who should be notified, you know, when these incidents 
occur? So we are focusing a lot of our attention and partnering 
with organizations like Autism Speaks. We are engaged on a PSA 
campaign to educate the community at large because the 
awareness level is not where it should be. The public will turn 
out to be the eyes and ears and first responders to this 
problem, but they need to know what to look for and how they 
should respond.
    Mr. Kline. Thank you.
    I see my time is expired. I yield back.
    Chairman Rokita. The gentleman's time is expired.
    The ranking member is recognized for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair.
    Mr. Ryan, thanks for being here again. I really appreciate 
this and the wonderful work that you folks are doing, and I 
just want to talk a little bit more about how the reauthorized 
Missing Children's Assistance Act is working and what more you 
might need from us. You know, we are often having discussions, 
arguments about funding and all of the rest. I like to say we 
are in a very highly constrained fiscal environment here in 
Washington, D.C. I think we can all agree to that. But you 
know, is there more that you can do? And if there were more 
funding, is there more that you could do, or are you pretty 
much at a point here where you recognize the reality that 
funding is in short supply, and the chances of maybe getting 
more probably aren't so great at this point? What is your sense 
of that?
    Mr. Ryan. Well, one of the things NCMEC does well is do 
more with less. For instance, in the area of designing 
educational curriculums, we have our own in-house studio. We 
create the content that we use. We don't have to use third-
party vendors that can be very expensive. We leverage our 
partnerships with a number of companies. They serve as the 
distribution platforms. Again, we are cutting into those costs, 
but where we need to be further engaged is getting in front of 
the schools on a nationwide basis, not on a community-by-
community, even state-by-state, but on a nationwide approach 
because we have the age-appropriate messaging. It is not a one-
size-fits-all. And we can track these kids from kindergarten 
through high school, because the nature of the problem is 
different. But we have--because we are the clearinghouse, we 
know the trends and patterns. We have the ability to design 
preventive messages. We have the ability to create the format, 
whether they be games or lesson plans, so we need--you know, I 
think this committee is uniquely positioned to help us partner 
with the educational community to push these messages out.
    Mr. Loebsack. I think it is great, and like the idea of a 
public-private partnership. I think we are, as a country, 
moving more in that direction all the time as well, given the 
limited resources that we have at the Federal level, whether it 
is on transportation or any number of other things. This is an 
area that, you know, clearly that seems to be working well. I 
would be interested in finding out from you if you could 
provide us some information or writing at some point sort of 
how it is that you judge how you are doing your job, what the 
metrics are, that kind of thing. If, you know, I could get that 
from you, if I could get that from you in writing, I think we 
would all probably appreciate that. I have no doubt you are 
doing a great job. You are doing your job and doing it about 
effectively as you possibly can.
    Can you elaborate a little bit more on the educational 
aspect of this? You have already mentioned a number of things 
that you are doing with schools. There may be more things that 
you would like to do with schools, with public schools, and 
private schools for that matter as well. Can you elaborate on 
that a little bit?
    Mr. Ryan. Sure. Where we think we can make a difference is 
train the trainers. In this case, the trainers would be the 
teachers. We know that they are in position to be an early-
alert system. We learned here, close to where we are now, in 
Fairfax County one of the better school districts in the 
country, over a 3-year period, there was a major operation 
where gangs were recruiting high school students from the 
schools and trafficking them commercially through neighborhood 
and community hotels. These children were going home at night. 
They were going to school for the most part. But nobody was 
picking up on the signs. So we learned from that. We work with 
law enforcement. We then have the conversation with the 
teachers. What did you see that was different? Performance 
dropping off, coming in late, maybe bruises? It could have been 
very well dressed, flashy jewelry, the whole range of symptoms 
that if the teachers were made aware of what to look for, they 
then could intervene at an early stage and pass that 
information on.
    Mr. Loebsack. I know at someplaces in Iowa, for example--my 
wife taught second grade for a long time. Teachers are 
mandatory reporters, too, and you know, that is something that 
is really important because teachers are in a situation, as you 
just said, where they are, you know, right there on the front 
lines. The school counselors, school nurses, a number of those 
folks are really critical. And if we can continue to do that 
across the country, I think it makes a heck of a lot of sense. 
Thank you so much.
    My time is almost up. I am going to yield the rest of my 
time. Thank you, Mr. Chair.
    Chairman Rokita. I thank the gentleman. The gentleman 
yields back.
    The gentleman from Tennessee is recognized for 5 minutes.
    Mr. Roe. Thank you, Mr. Chairman.
    First of all, thank you for what you do every day. And I 
have to tell you with our human trafficking bills that the 
Congress passed in a bipartisan way just a few weeks ago, it 
really helped educate me about the enormity of this problem. I 
had no idea it was as large as it was. And I look at this graph 
that you have on your CyberTipline, and do you think--I mean, 
down here from 1998 or 2000, now it just, there is an 
astronomical increase.
    Mr. Ryan. Right. And what is the reason for that? Is it 
because of a better awareness, do you think, because I can tell 
you, I was clueless about how enormous this problem is and how 
subtle you just very well described it could be in a school if 
you are not really paying attention, and don't know what to pay 
attention to. Somebody can be right there in front of you 
carrying on an apparently normal life and they are not carrying 
on a normal life.
    Mr. Ryan. I think one of the critical factors that has 
caused the increase is the online classified ad platforms on 
the Internet, the Backpages of the world. This has provided a 
relatively inexpensive business model for pimps and predators 
to advertise their clients, minors, for sex. And for a modest 
investment, they are trafficking these children around the 
country, usually under the radar of local law enforcement 
because they are moving them from community to community, State 
to State, and these are children from all walks of life. The 
majority of them start off as endangered runaways, but some of 
them come from stable households. They are applying for jobs 
that they think may be modeling, or something in the 
entertainment business, and they are lured by these predators 
and taken then across the country. So it is in everybody's 
backyard. If people are not aware of it, they are not looking 
for it.
    Mr. Roe. What is the way to--I didn't know what Backpage 
was 3 months ago, or 4 months ago. How do you go after those 
folks? One of the bills we passed was to go after the people 
who advertise. Is that an effective method to do it, because it 
is cheap, as you said, to put up a Web page.
    Mr. Ryan. Currently, there are no regulations that they 
fall under, so unlike the responsible electronic service 
providers who have a legitimate business model, they choose not 
to know who their customer is. They turn a blind eye. If they 
see something that may look like potentially child pornography, 
they may make a preliminary report, but they are not searching 
their systems. So if they see a phone number associated with 
potentially illicit activity, well, search your system. That is 
not an isolated occurrence. That child associated with that 
number has probably popped up in multiple States as we saw in 
Operation Cross Country. So they are doing the bare minimum. 
So--
    Mr. Roe. A wink and a nod is all they are doing.
    Mr. Ryan. Exactly, precisely.
    Mr. Roe. And one of the things we did, I think, in the bill 
is extremely important, is to take the victims, not make them 
criminals, but make them victims, and so they can turn 
themselves in and not be prosecuted. Some of the fears are 
probably they are afraid I will go to jail because I am engaged 
in something illegal. I thought that was a huge issue to take 
these children. They are not--they are victims of these crimes.
    Mr. Ryan. You are 100 percent right, sir. And when they are 
treated like victims--they were not reporting, because they 
felt that the law enforcement was not a potential ally, a 
potential threat. And the gap still exists though. When these 
minors are recovered, for instance, in Operation Cross Country, 
where do they go? Where are they placed? Because they are not 
in the criminal justice system now, which is good, but there is 
no hold over them. We don't want them going back to the same 
environment because the rate of recidivism is very high. That 
24, 48-hour period is critical to put them in the right hands, 
to get them the care, the therapeutic care that they need. And 
I think this committee is well situated to identify those 
resources and agencies that we can partner with.
    Mr. Roe. And there is a real shortage there, as I 
understand, as I learned about this.
    The other thing I want you to, in my short time remaining, 
is talk about the missing from foster care. I would think that 
would be amazing to me, that only two States have any 
requirement that if a child walks away from foster care, that 
no one would know that. What can we do or what should States do 
to alleviate that?
    Mr. Ryan. Sure. Presently, there is legislation in front of 
this Congress with bipartisan support, that would require 
social service agencies, those foster care facilities, to 
report every instance of a child going missing to law 
enforcement, and then on to the National Center. We know the 
two States that currently do that, Florida and Illinois, we 
received over 4,000 reports over the last year. We can 
intervene with law enforcement at an early stage. We can find 
out because they frequently run away. It is not an isolated 
situation. We know where they are likely to go, who they are 
with. And if law enforcement gets that information, they can 
intercept them before they are exploited. So a mandatory 
uniform program of reporting will be immeasurably an 
improvement.
    Mr. Roe. Thank you for what you do. You are making a 
difference in this country.
    I yield back.
    Chairman Rokita. The gentleman's time is expired.
    I now introduce a legislator who is a dear friend to 
everyone on this committee, the gentlelady from New York, 
Representative McCarthy for 5 minutes.
    Mrs. McCarthy. Thank you, Mr. Chairman.
    And thank you Ranking Member Loebsack.
    Just listening to you and reading your testimony, but a few 
things bother me, especially on the foster children and also 
the children that are in the schools. My sister is a school 
nurse, and she does report an awful lot of things to social 
services. If it is not a high-level case, they can't take it. 
And they just let it go. This is one of the biggest complaints 
that I hear from her when she knows something is going on. And 
of course, the child does not open up. So I think that is 
something that we really need to look at, you know, because you 
are talking about social workers, which we don't have enough of 
them. We don't have enough school nurses to be able to have, 
like everybody does go to her, the children. You wear that 
white uniform, that is safe. So I don't know how we are going 
to, you know, solve that problem.
    But the children with disabilities, you know, I am sitting 
here, they already got two strikes against them, especially 
those that have a hard time communicating. And that is going to 
be a real problem, and that is a real problem. And I am 
thinking of some people my age, a little bit older, some of us 
have pendants, so if we fall or something, and it is kind of 
like a GPS, someone can respond. And I don't know what the 
privacy laws would be, but especially with children that can't 
communicate well, can like a GPS watch help them to recover?
    Mr. Ryan. Absolutely, and there are some programs in place 
based on GPS tracking. And it is a voluntary process where the 
family decides to, you know, implement that device. It can be 
something in their school bag so it is not, you know, visible, 
so it is not going to be something that is going to, you know, 
cause any alarm, or you know, undue discussions. And some 
police districts have signed on to support that. So that device 
will only be triggered when a family member activates it. It 
goes directly to the police agency. We had a case here recently 
in Montgomery County, where actually the child of one of the 
Autism Speaks executives, their young boy traveled to school 
back and forth on a school bus. Inadvertently, he was put on 
the wrong school bus, gets lost in the system for many hours 
which is a nightmare for that child. That child had that device 
in his school bag. They called Montgomery County. It was 
activated. They found that child within 15 minutes of the 
activation.
    Mrs. McCarthy. And just to follow up, the programs that you 
are going to be doing in the schools, are you also reaching out 
to the PTA so that the parents are also educated? Because one 
of the things that we found, especially with trying to educate 
parents on they should know what their children are looking on, 
on the Internet, there are so many good programs out there, but 
we are finding a lot of parents don't take advantage of that.
    Mr. Ryan. You are right, Congresswoman. We provide--our Web 
site is our principal resource for parents in the community. 
But if they don't know about us, they are not going to go to 
us. So we have to do a better job of getting out to the 
communities, raising awareness of what services and resources 
we can provide, all of them for free. And I think, again, that 
is why the schools are the nexus.
    Mrs. McCarthy. Yeah.
    Mr. Ryan. Because the parents are connected to the schools 
for a range of services and guidance. So I think if we can, you 
know, get our foot in the door there, we can do a better job 
dealing more directly with the parents.
    Mrs. McCarthy. Now, have you been doing a lot of work with 
some of the social workers, especially for those children that 
are placed into a foster home? Because you hear and you read 
about so many cases where these children are put into these 
foster homes, and they are there for a number of years, but the 
turnover or the runaways are extremely high. Is there any way 
where the social workers are actually the key to really see 
that this abuse is going on, but a lot of times the social 
worker comes in, the child is petrified, doesn't want to say 
anything, especially depending on the age. And then by the time 
they get to be a teenager, they bolt.
    Mr. Ryan. That is right. We have, in connection--in 
addition, I should say, with the two States that are reporting, 
we have made outreach efforts to a number of States through 
social service agencies and law enforcement agencies, to form 
partnerships and protocols of reporting. And we have had some 
success in the number of States where, again, social service 
workers are the key. They are the ones outside the classroom 
that have the most contact with these children. And even if 
they are not getting information from the child, if they know 
something is wrong, they are not being told something, and what 
is that? If they know that the National Center may be able to 
provide additional information, what could be happening, then 
we form that link that kind of closes that gap. You have social 
services. You have law enforcement. You have the National 
Center. We may know where that child is going from, because 
with the dialogue with the social workers, does that child have 
a phone? What is that phone number? We have access to all of 
the public databases, the social media platforms; like that 
mother did of that 16-year old. She looked for her daughter's 
phone number on Backpage. We could look up that number. We may 
see where that surfaces, and it may not be a good story, but we 
could pass that information on so there is intervention before 
exploitation.
    Mrs. McCarthy. Thank you for your service.
    Chairman Rokita. The gentlelady's time is expired.
    The gentleman from Pennsylvania is recognized for 5 
minutes, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Ryan, thank you. Thank you for being here for, you 
know, one of our most crucial missions, keeping our children 
safe. I really appreciate your work.
    I was pleased to learn of your initiative Safe to Compete, 
which raises awareness of child athlete sexual abuse and 
provides training and preparedness opportunities. I am sure we 
can all agree that putting forth a set of best practices will 
ensure our children will be safer when participating in sports. 
Can you briefly describe what is currently being done to ensure 
athletes are protected and how, as policymakers, we can further 
assist with those efforts?
    Mr. Ryan. Yes, sir. As a result of that Safe to Compete 
conference, where we drew together most of the Nation's largest 
youth sports entities and mental health professionals as well 
as community leaders, they signed on to what you have referred 
to as best practices, which includes that critical stage when 
an organization is taking on either a volunteer or a paid staff 
member who will have close contact with these children. Many of 
these organizations have overnight, weekend stays, even week to 
a month stays. So parents need to know who they are entrusting 
their children over to, who is literally going to be 
responsible for their children. These organizations now are 
doing background checks. They are doing criminal history 
checks. So they are able to detect red flags before they turn 
over the care and custody of these children to these, whether 
they be volunteers or staff members. Now, more needs to be 
done. And that is where I think Congress can help because we 
need a nationwide uniform program of background checks. The 
larger organizations can afford it. They can, you know, pass 
that on through dues or other, you know, grants that they get, 
but the small, local community-based organizations, and there 
are thousands of them, they cannot. So we need to supplement 
their ability to do the same background checks because it is 
equally as important because there is a gap there.
    And predators find the gaps. They are not going to go to an 
organization where they know they are going to, you know, be 
vetted and checked out. They will go to a small organization, 
because as long as they have kids, that is all they need. And 
if they are not going to be properly, you know, vetted, then 
they get in the front door, and that is where the problems are.
    So we need a nationwide, uniform approach of background 
checks. Fingerprints have proven to be the most reliable and 
comprehensive. There is a cost associated with that, but there 
are ways to spread that cost around. We have worked with some 
of our partners, like LexisNexis. They have, as a result of 
Safe to Compete, they actually helped fund that conference, 
Congressman, and they offered a discount rate to community 
organizations to provide those necessary checks, to ensure the 
cost was not a prohibiting factor. So we are prepared to work 
with Congress. We can identify some of these corporate partners 
who could help defray some of these costs, but it needs to be 
done.
    Mr. Thompson. Very good. Thank you.
    I want to switch gears here. You do such great education, I 
wanted to zero in on your NetSmartz workshop. It seems like a 
valuable tool to students, teachers, and parents. Can you talk 
a little more about this program, and how will the new 
initiative, KidSmartz, differ from your main education program?
    Mr. Ryan. Well, we are expanding--NetSmartz started out as 
primarily a Web-based platform where we provided the access to 
teachers and educators to come to our Web site, download the 
resources, and then utilize them in their school. Because we 
have grown, as I mentioned, we have our own in-house studio 
now. Some of them get a little carried away. They think they 
are like Disney animators, but they have created characters and 
formats, again, that are age appropriate. So you don't want to 
scare kids at the age of five. But yet, some of these kids have 
access to iPads. So you can't neglect them and say, well, wait 
until they get a little older. You have to approach them and 
address them as soon as they are starting to access these 
devices. So but yet the same message, the same cartoons, you 
know, a high school student is going to say, obviously, not for 
me. But they are still vulnerable. Sexting, sextortion, those 
are new offenses that are targeting what we call tweens. They 
are the ones who are socially adept at utilizing the 
technology, much more so than I, but yet, they don't know the 
real-world problems that are being facilitated through those 
devices. So, again, we now have the ability to target these 
messages, and we have the platform now, but we still need that 
entre. You know, I think we need a committee like this and 
other partners to get into this discussion because it is free. 
At the end of the day, it is free.
    This KidSmartz program that we are going to launch in 
September was totally paid for by Honeywell; not a dime of 
taxpayer funds, and they are committed. If this is successful, 
as we hope it is, they are not going to just say this is a one-
time release. They will stand behind it. And other partners 
will step up. We have been in touch with the Rotary 
Association. I didn't realize how strong they are, 1.2 million 
members, and they are all of the stakeholders that we would 
hope to deal with; business leaders, educators, political 
leaders, you know, the schools. They are adopting now some of 
our challenges. They are about to take on child sex trafficking 
as maybe their next national campaign after polio. That is huge 
because they touch all of the important sectors that we need to 
touch, that we couldn't do without support like that.
    So, again, we look forward to the partnership with this 
committee because you have the same charter and we can, I 
think, with our subject-matter expertise in this area, work 
well together.
    Mr. Thompson. Thank you.
    Chairman Rokita. Thank you.
    The gentleman's time is expired.
    The gentlelady from Ohio is recognized for 5 minutes.
    Ms. Fudge. Thank you, Mr. Chairman.
    And thank you Mr. Ryan, for being here today.
    Mr. Ryan, I represent the 11th District of Ohio, where 
national news was made last year when we found three young 
women had been held in a home for more than 10 years. But we 
also found that there was a great amount of change needed 
within our police department because their practices in some 
ways made the problem worse as it relates to how we search for 
and find missing, exploited children. How much work do you do 
with local police departments to prepare them to look for these 
young people?
    Mr. Ryan. We actually worked--we worked very closely with 
that community. We have ongoing training. We call it the CEO 
training course. We bring in national law enforcement leaders 
to the National Center; usually a class size is about 50 to 75, 
and it is train the trainers. We teach them and expose them to 
the resources that the National Center can provide, so when 
they go back home to their respective agencies, they become our 
ambassadors. Cleveland is a good example. We held--it wasn't a 
CEO training course, but we held what we called a long-term 
missing children summit in the afternoon of the Cleveland case 
because there were a lot of lessons learned and takeaways.
    Ms. Fudge. Absolutely. But these police departments are not 
required to do it, correct? They just do it because, in 
Cleveland's situation, they only did it because they had to, 
because of the situation.
    Mr. Ryan. It is voluntary.
    Ms. Fudge. What do we do to make sure that every single 
local police department has the proper training? Because I am 
telling you, that is a major part of the problem.
    Mr. Ryan. I think it should be built into the training 
curriculum of every police academy, because it is going to 
become a critical part of their mission. It only takes one 
missing child case, and if they are not familiar with how to 
deal with that case, what resources are available, who to 
partner with, we will see what happened 10 years ago in 
Cleveland, where those cases, you know, fell through the 
cracks. So that should never happen again. We actually had the 
Cleveland girls at NCMEC. We had the chance to talk with them. 
We learn from survivors. What can they teach us? What can they 
teach law enforcement? Because they have a powerful story to 
tell.
    Ms. Fudge. Thank you.
    And let me just take this one step further. Just this year, 
a year later, our local paper ran an editorial titled ``Put a 
Face on Greater Cleveland's Faceless Missing Children.'' I was 
shocked to realize how often the descriptions of these missing 
kids aren't accompanied by a photograph of some sort, and/or 
they are not put on police Web sites, or Web sites of 
nonprofits.
    How do we encourage nonprofits as well as our police 
departments to make sure that these--the faces of these kids 
are on their Web sites?
    Mr. Ryan. We have a photo distribution partnership with 
well over 1,000 corporations, including the social media 
platforms, Facebook, and Google. They have dedicated Web sites 
for missing kids, and they provide profiles of who these kids 
are, age-progressed photos of these children.
    Ms. Fudge. Right. I understand. I am talking about police 
departments and local nonprofits, I mean, because a lot of 
times people don't go to those sites. If I live in Cleveland, I 
want to go to my Cleveland police department and see it.
    Mr. Ryan. Sure.
    Ms. Fudge. But let me ask you my last question. What is the 
recovery rate as it relates to demographics with your agency? 
Certainly, at least from our experience at home, we find that 
minority children are not recovered nearly as quickly as 
nonminority children. Do you find that to be true?
    Mr. Ryan. Well, we don't keep recovery rates based on, you 
know, any of the demographics like race, gender. We have an 
overall recovery rate.
    I agree with you, Congresswoman, that more needs to be done 
because we do know that over 50 percent of those children who 
go missing are from minority communities.
    Ms. Fudge. Precisely.
    Mr. Ryan. They do not get the same level of media attention 
that is warranted. We have taken a number of steps to, you 
know, actually convene major networks and publications to do 
what we think is a more responsible effort to keeping these 
cases alive because it is critical because as these cases age, 
out of sight, out of mind, and that should never happen.
    Ms. Fudge. Thank you very much.
    I yield back.
    Chairman Rokita. I thank the gentlelady.
    The gentlelady from Indiana is recognized for 5 minutes.
    Mrs. Brooks. Thank you.
    And thank you, Mr. Chairman, for holding this important 
hearing.
    I actually had the opportunity when I was U.S. attorney--
and I now don't recall what year--we toured your center, and 
learned--it was sometime between I would say 2002 and 2006 that 
I toured the center and was very involved in our Internet 
Crimes Against Children Task Force with Assistant U.S. Attorney 
Steve DeBrota, who I know works a lot with the center. And my 
question is, how, when we have ICAC forces all around the 
country, as well as maybe local jurisdictions have child 
exploitation task forces, when kids come up in their 
investigations and photos, but you don't know enough, you don't 
know who the child is, or even where, you know, the crime is 
taking place, how are the photos or the images of those 
children shared with you so you can figure out if you have 
information in your databases about what law enforcement is 
looking at?
    Mr. Ryan. That is a great question. Well, the--we get our 
images from a number of sources. The principal one is our 
CyberTipline, which, again, we have received over 2.6 million 
reports, many of them do contain images of yet-to-be-identified 
children. We populate our databases with those images, and 
through the support of some of the technology companies, like 
Google, and Facebook, and Microsoft, they help us with what we 
call tools, visual aids that we can go through these reams of 
images--there are millions in number--what are the common 
links? Where have we seen that before? Because many times, 
these images are part of a series, and some of the series may 
be innocuous, benign images, but we have to match that up with 
that elicit scene of that same child and we are able to do 
that, but we are actually working now--the problem is this: We 
cannot be a State actor. If we are a State actor, then we harm 
law enforcement's prosecution of these cases which we make 
referrals to. So we don't accept images from law enforcement. 
We push out to law enforcement. Having said that, we have a 
fairly robust and comprehensive inventory, or library so to 
speak, because we are being fed by the largest ESPs.
    Mrs. Brooks. Well, that is my concern about this, is that 
you do have this huge database of images, and yet, it seems 
that law enforcement and the cases would benefit and their 
investigations would benefit if they were required to push the 
image to you, you might be able to make the match.
    Mr. Ryan. Well, they have access to ours. They have 
access--and we coordinate through INTERPOL, so there are common 
databases that have access points. But again, we have to 
segregate what we receive from law enforcement to ensure it is 
not tainted for potential Fourth Amendment challenges when 
these cases are prosecuted.
    Mrs. Brooks. Okay, I would like to talk to you about that a 
bit further offline as to how we can help resolve some of this-
-
    Mr. Ryan. Absolutely.
    Mrs. Brooks.--because I think that your center and all of 
these task forces, maybe we should talk about how they can work 
in even closer cooperation. And I know, because I work on 
emergency preparedness issues, that there are platforms where 
Red Cross and where FEMA and others monitor Twitter feeds and 
Facebook. Are you in a position, either working with Google, 
Palantir, Facebook, where you are monitoring Twitter feeds and 
Facebook maybe in geographic areas to try to find out what is 
going on in some communities?
    Mr. Ryan. Well, we don't monitor, but we do have links and 
both through the--all of the companies that you mentioned, they 
actually partner with us, provide access to their software 
applications and, more importantly, their audiences, in the 
case of Google, and Facebook. So we have an active dialogue 
through all of those social media applications. We don't 
monitor them, per se. We encourage an active engagement, 
though.
    Mrs. Brooks. Are you familiar though with what I am talking 
about, that FEMA and Red Cross actually monitor for maybe 
public health outbreaks or, you know, after emergencies, cries 
for help, and so forth?
    Mr. Ryan. Sure. We actually partner with FEMA, because as 
you know, Congress has designated the National Center as a 
national relocation center when children go missing in a mass 
disaster. And so we work closely in establishing protocols with 
FEMA and the Red Cross in the event of a potential crisis. So 
we kind of piggyback on their resources, and programs, and they 
bring us in when they see the need.
    Mrs. Brooks. Thanks so much for your incredible help, and I 
am interested in learning if there are any legal impediments 
that you have to work even closer with law enforcement.
    Mr. Ryan. I look forward to that dialogue. Thank you.
    Chairman Rokita. The gentlelady's time has expired.
    The gentleman from Kentucky is not on the subcommittee, 
but, without objection, I would like to recognize him for a 
line of questioning, if he would like, regarding this matter.
    Mr. Guthrie?
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate it very 
much for allowing me to do so.
    I am over on this side of the room. Good to see you again. 
Yeah, good to see you.
    Mr. Ryan. Did somebody come in?
    Mr. Guthrie. Yeah, somebody came. I apologize, I am not on 
the subcommittee, so I am down here, but I think they just had 
a new Member come in, so I apologize for that.
    But before I get to what I was going to ask, on the 
question of not requiring to report, there are only two States 
required to report. That is reporting to law enforcement, 
right? They have to report that if they have somebody in their 
foster care who leaves their foster care, they report it to 
social services or somebody, I am sure, right? Or they just 
don't have any reporting at all?
    Mr. Ryan. That may be the case. It varies by State. But I 
am referring specifically to reporting to law enforcement.
    Mr. Guthrie. Okay, that is what I thought.
    And I was in the Center, and I did the authorization last 
year and, you know, it shows that when we find common ground in 
the House and the Senate we can work together. Senator Leahy 
and I were the primary sponsors of your reauthorization, and so 
I came to tour the Center. And I recommend it to all my 
colleagues, to do that.
    And the techniques that you have to go through to find, 
one, who the child is in the image and who the person is 
creating the image who we want to find is interesting, how you 
do that, and it is something we need to know, and it certainly 
is a skill and an ability. It is something needed, because 
there are things going on in this world most people can't even 
get their minds around that happens.
    And the issue with me, I am from Bowling Green, Kentucky, 
and this always happens in the big city, you think, and so when 
we are home working in August, I am trying to highlight the 
fact this does happen everywhere, anywhere that has a computer. 
It is just not somebody out on the street or so forth. So we 
are going to try to do roundtables or conferences in different 
parts of my city.
    What kind of things do you think, just advice for us, we 
should make sure people know are going on in their communities? 
Because you see it everywhere. You see what is happening. What 
kind of things do you think people don't know, in general, that 
they need to know about what is probably happening in their 
community?
    Mr. Ryan. One of the most prevalent venues where these 
minors are being trafficked are in local hotels. Now, 
typically, you know, people aren't paying attention to who is 
coming and going in these hotels, but those who are in the 
business of operating hotels, they are in a position to take 
notice of the behavioral characteristics consistent with this 
trafficking.
    For instance, many times, a pimp will come in with three, 
sometimes five young girls. The girls will be off to the 
corner; the pimp will go in and make the arrangements for three 
to five rooms, it might be for a 3-day period, typically cash. 
These girls will go up to their rooms. They will never leave 
their rooms. Food will be delivered. Nobody sees them again 
until they leave.
    That is strange. What is going on? Why is that pimp hanging 
around? Why is he walking the hallways, you know, 24/7? 
Something is going on that is inconsistent with the regular 
routine of the trade of that hotel.
    And I am not just talking about the very small, seedy 
hotel. I am talking about very well-known, you know, reputable 
brands.
    Mr. Guthrie. Chain hotels. Yeah, my home is exit 22, and I-
65 is, like, it is right there, and so every chain that you 
know that has a--
    Mr. Ryan. It is every chain.
    Mr. Guthrie.--you know, it is there.
    Mr. Ryan. And what I invite people to do, and I say this 
with some degree of reluctance, but if you want to see the 
scope of the problem in your own neighborhood, go to a back 
page, because they promote ads in communities, in towns. It is 
not just cities, but they break it down, you know, into 
counties, into boroughs, into communities. So if they are 
advertising your area in an adult escort service, that means 
you have a problem. A child, if not multiple children, are 
being exploited in that area.
    Mr. Guthrie. If I could privately reach out to you--I know 
Ms. Brooks is going to--and just get those ideas of what you 
think we should present. I didn't think about inviting hotel 
owners to come to a roundtable, but that sounds like--
    Mr. Ryan. Also tourism.
    Mr. Guthrie. Or a tourism group.
    Mr. Ryan. You know, these young girls--there are some boys, 
but mostly it is young girls--they are being trafficked from 
State to State, so how are they getting to and from? Many 
times, they are flying, but then they are getting into cabs.
    We have had many reports; law enforcement gets reports. 
They see the same young girls over the course of a month, 2 
months, come through their area, go to the same hotels, go 
back, you know, at some point to the same.
    There are a lot of eyes and ears in different sectors who, 
if they are properly educated, alerted, who can they call? 
Typically, it is going to be law enforcement. They can get to 
the bottom of this and do incredibly good work.
    Mr. Guthrie. Thank you. Appreciate that.
    I yield, and thank you for the time, Mr. Chairman.
    Chairman Rokita. The gentleman's time has expired.
    I will now recognize the gentleman from--Mr. Sablan for 5 
minutes.
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And welcome, Mr. Ryan.
    And while looking at this map of registered sex offenders 
in the Northern Marianas--I mean, throughout the country, we 
see--we are grateful, one, that we are included in the map, 
because usually the territories are, for some reason, excluded.
    But I want to welcome you and tell you a little story, 
also, about, you know, our island and the district I come from. 
One morning in May of 2011, there was the tragedy of two 
missing sisters, actually, that fell hard upon our community. 
Maleina, who was 9 years old, and Faloma, who was age 10, were 
last seen at their bus stops as they were on their way to 
school. And law enforcement authorities were notified that the 
young girls were missing only after the sisters failed to 
return home from school that afternoon, and so there was that 
gap of time that was lost.
    But I want to thank your organization, sir, in particular, 
Maureen Heads and Bob Hoever, for working with our office to 
ensure that we were included in the information in this map 
that we have before us.
    And it has been 3 years since the girls have not been 
found. There have been leads, according to law enforcement 
officials, but the girls remain missing and there have been no 
arrests. And we have not forgotten, the entire Northern 
Marianas community have not forgotten about Maleina and Faloma, 
and we continue to pray for their safe return. And I hope that 
your organization, NCMEC, we can still find them alive and 
unhurt.
    But under the reauthorization, the 2013 reauthorization, 
your organization is required to include local educational 
agencies, or LEAs, on information, services, programs, and 
resources for missing and exploited children. If we could be of 
any assistance to your organization in connecting you to our 
school officials, we would be very - more than happy to do 
that.
    But I need to ask, if you could tell me if you have reached 
out to our LEAs, our public school system. And if you did, what 
can you share with me as a result from your coordination with 
them?
    Mr. Ryan. Congressman, I have to look into that to see if 
there has been direct contact.
    I know that our case managers, on the case that you 
reference, for instance, would be in touch with the law 
enforcement investigators, because one of the things we do and 
are doing in cases like that, we--two things to keep that case 
alive in, you know, the efforts of law enforcement: We do an 
age progression, which we do every year, and we release that 
and update that to law enforcement and all our poster 
distribution partners. So that should be going on within your 
respective district.
    And the other thing we do is a comprehensive, what we call, 
actually, an anniversary campaign. So, every 2 years, we will 
disseminate stories about, in this case, those two young girls 
who went missing, again, to try to generate a lead and a tip to 
come in. Because, you know, as people's memories fade, if you 
keep the story in front of them--
    Mr. Sablan. Yeah.
    Mr. Ryan.--they may remember that one crucial piece of 
evidence that they may not have thought important a year or 2 
ago, but now, in context, they will call.
    Mr. Sablan. Right.
    Mr. Ryan. So we are doing that, I can tell you that.
    Mr. Sablan. Yeah. And the reason I am offering to help your 
organization hook up with our public school officials, for 
example, is, from just the information that we have been able 
to receive from those law enforcement authorities, the time 
since the girls were last seen at the bus stop and the time 
that law enforcement authorities were notified, those were, 
according to some people, very important, very critical time 
that would have been very useful in probably solving the crime. 
And, unfortunately, you know, the authorities were not notified 
until the girls didn't come home from school.
    I understand that the authorities were not informed when 
the girls did not report to school. And I know that some of our 
school officials have changed the system and have updated, but 
we need your cooperation, sir.
    Mr. Ryan. Sure.
    Mr. Sablan. And I would be willing to connect you with her 
if you have not made any contact or any coordination.
    Mr. Ryan. We will definitely follow up, Congressman.
    Mr. Sablan. We need your assistance in getting our school 
officials up to date on what are the basic things or what are 
the important things they need to do to keep the children safe, 
you know, so we don't repeat this whole thing again.
    My time is up, Mr. Chairman.
    Mr. Ryan. Absolutely.
    Chairman Rokita. I thank the gentleman.
    The gentleman's time has expired. I would note for the 
record the gentleman is from the Northern Mariana Islands. The 
chair's ignorance of the two-letter postal abbreviation, that 
caused the confusion in introducing him.
    The chair recognizes himself for 5 minutes.
    Mr. Ryan, thank you again.
    My blood boils, at the beginning when you gave that brief 
example about how a child could be delivered to a hotel room as 
easily as ordering a pizza. As a father of a 6-year-old and 4-
year-old, you know, if I saw that gentleman, I don't know if I 
could contain myself. I would probably be in jail right 
alongside of him for battery, if not worse.
    You came from the Internet business, if I looked at your 
bio right. You worked for AOL. This has nothing to do with AOL, 
but I am just trying to establish a record here. Something 
along the way, your career led you to this position now, after 
working on the Jerry Sandusky scandal, or the aftermath of it.
    You mentioned at the beginning of your testimony that the 
world is a different place, and you immediately transitioned to 
the Internet. Did the Internet cause this? Did the Internet 
enable this? Is this world a different place because of the 
deterioration of society generally? Or were these people--I am 
struggling for my Christianity here--have these people always 
been here and with us in our society?
    I am not asking you--you are not a psychologist, you are 
not a--I want your personal opinion.
    Mr. Ryan. I think the Internet clearly has opened up 
opportunities that did not exist that facilitates the 
commission of these traditional crimes. I mean, there were 
always predators. The modus operandi, though, has changed 
online.
    Because when you think about it, now the Internet provides 
a global platform. It provides the ability for a predator to 
so-called groom a potential victim. Because through all the 
information that is imparted on different social media sites, a 
predator will glean that information and then turn that around 
and target an individual. They will know the name, the school 
they go to, their activities, their friends. So when they start 
the dialogue with a potential victim, that victim feels, oh, 
this is a peer, they know me, they are just like me. Their 
guard is down.
    That is what the Internet has encouraged and enhanced. And 
it has made the apprehension of these predators more difficult 
for law enforcement, because, you know, they can operate under 
the radar, so to speak.
    So it has caused, I use the term ``explosion'' of these 
offenses, because these predators have additional tools, they 
have the ability to, you know, stay undetected, and they have 
much more opportunity to target a larger pool of potential 
victims.
    Chairman Rokita. Regarding the Internet, do you have any 
solutions for companies, anything that you haven't mentioned 
yet, short of censoring or--
    Mr. Ryan. Well, a lot of companies--
    Chairman Rokita.--you know, that you want to get on record?
    Mr. Ryan. Absolutely. At AOL, we employed what we called 
parental filters. You enable parents to restrict the level of 
access that children have on the Internet, and it requires a 
partnership.
    Chairman Rokita. What about those kids that don't have 
parents, effectively, the ones that might be going to the 
social worker that was brought up in earlier questioning and 
that sort of thing?
    Mr. Ryan. It enhances the problem, but, you know, whoever 
is entrusted with the care and guardianship of that child, 
whether it be a social worker or even a teacher during that 
school day, they have to be that responsible person who, if 
they are providing access to the Internet, which all schools do 
now, they have to take on the added responsibility to know 
where they are allowing that child to navigate and what tools 
and filters are in place.
    Chairman Rokita. Thank you.
    In the time I have left, you mentioned several times the 
committee being well-situated, quote/unquote, to help develop 
the partnerships. Can you give more detail on what you mean by 
that?
    I would just as soon you develop the partnerships. Don't 
wait on this committee or Congress or anything else; go forth 
and do this work.
    Mr. Ryan. Well, for instance, we have had the ability, in 
this past year alone, since we engaged and got more familiar, 
you know, educating this committee about our work, and, 
frankly, we have learned more about your mission and charter, 
which has been extremely helpful. We have worked with the staff 
members in terms of their work to try to help identify 
legislative measures that could address some of the challenges 
that are emerging.
    Just prior to this conference, this testimony, I was 
engaged with a very, you know, excellent dialogue with a staff 
member, just talking about what we are seeing, what are some of 
your challenges, and where that intersection may be, what fixes 
you are thinking about, and what is our take--a dialogue. I 
found that a dialogue by interested stakeholders is more likely 
to end up with a mutual solution, that if you don't have that 
dialogue, you are flying blind.
    Chairman Rokita. Okay. Thank you. My time has expired.
    I will now recognize the ranking member for any closing 
remarks.
    Mr. Loebsack. Well, thank you, Mr. Chair.
    I just appreciate the fact that we have had you here today, 
Mr. Ryan. I have learned quite a lot.
    I, too, would like to just associate myself with the 
remarks of our chair about how enraged I think we all are when 
we hear some of the things that we have heard today. I think 
that just leads us all to want to go forth and make sure we do 
everything we can to cooperate with you to minimize these 
issues that are out there, if not eliminate them entirely.
    And I do agree, too, that the role of the Internet, no 
doubt, has been really important in magnifying the problem, 
multiplying the problem, perhaps, in many instances, too.
    So thank you for being here today.
    And I want to thank the chair again for having this 
hearing. Thank you.
    Mr. Ryan. Thank you, sir.
    Chairman Rokita. Mr. Ryan, thank you again for being here. 
We really appreciate your leadership, appreciate your 
commitment to this country and our kids. We join you in that 
effort. And we look forward to continuing our relationship and 
that dialogue you spoke of and doing everything we can so that 
families can build better lives for themselves.
    And, with that, seeing no further business before the 
subcommittee, the subcommittee stands adjourned.
    Mr. Ryan. Thank you, Mr. Chairman.
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    [Mr. Ryan's response to questions submitted for the record]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
        
    [Whereupon, at 11:18 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
